No.

IN THE SUPREME COURT OF THE UNITED STATES

JOE EDWARD JOHNSON, Petitioner
Vv.
STATE OF CALIFORNIA, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA

CERTIFICATE OF SERVICE

I, Jon Nichols, hereby certify that my business address is 1111
Broadway Suite 1000, in the County of Alameda and the City of Oakland,
Telephone (510) 267-3300; that on July 10, 2020, I served, pursuant to
Supreme Court Rule 29, one true copy of the PETITION FOR A WRIT
OF CERTIORARI and MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS in the above-entitled matter on the following parties

by placing same in an envelope addressed as follows:

 

Melissa Lipon, DAG

Office of the Attorney General
P.O. Box 944255

Sacramento, CA 94424

916) 445-9555

   
  

 

 

Each envelope was then sealed and deposited in the United States
mail at Alameda, California with first class postage thereon fully prepaid.

All persons required to be served have been served.
I declare under penalty of perjury under the laws of the State of

California that the foregoing is true and correct. Signed on July 10, 2020 at

Alameda County, CA. . :
a {——

ion CHOLS

 
